HHS/OIG-Audit--"Review of Outpatient Psychiatric Services Provided by Saint Vincent's Hospital for Calendar Year Ended December 31, 1997, (A-02-99-01010)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by Saint Vincent's Hospital for Calendar Year Ended December
31, 1997," (A-02-99-01010)
October 6, 2000
Complete
Text of Report is available in PDF format (3.19 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that many of the outpatient psychiatric services claimed by Saint Vincent Hospital did not
meet the Medicare criteria for reimbursement. Specifically, charges for outpatient psychiatric services lacked sufficient
patient treatment plans, lacked sufficient medical record documentation, and/or were not reasonable and necessary. We estimated,
based on a statistical sample, that at least $2,261,155 in such charges for calendar year 1997 were unallowable. In addition
to a financial adjustment, we recommended that the Hospital strengthen its procedures to ensure that charges for outpatient
psychiatric services are reasonable and necessary and properly documented in accordance with Medicare regulations and guidelines.